CERTIFICATE OF COMPLIANCE

No.

Richard E. Boggs,
Petitioner
v.
UNITED STATES OF AMERICA, INTERNAL
REVENUE SERVICE, PETER RAE (coworkers, et al­
as individuals)
Respondent(s)
As required by Supreme Court Rule 33.1(h), I certify that the petition for a
writ of certiorari contains 1667 words, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on 10 October_, 2020.

Richard E. Boggs Pro Se
All Rights Reserved

